1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30139
WASTE MANAGEMENT OF LOUISIANA, L.L.C.,
Plaintiff-Appellant
v.

United States Court of
Appeals Fifth Circuit
FILED
April 10, 2019
Lyle W. Cayce
Clerk

RIVER BIRCH, INCORPORATED; ALBERT J.
WARD, JR.; FREDERICK R. HEEBE; HIGHWAY
90, L.L.C.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Louisiana
Before DAVIS, COSTA, and OLDHAM, Circuit
Judges.
W. EUGENE DAVIS, Circuit Judge:
This appeal challenges the district court’s order
granting partial summary judgment in favor of Defendants River Birch, Inc., Albert Ward, Frederick
Heebe and Highway 90, L.L.C (hereinafter sometimes
collectively referred as “River Birch”). Plaintiff Waste
Management alleged that Defendants bribed former

2a
New Orleans Mayor Ray Nagin to shut down a landfill
opened in the city in the aftermath of Hurricane
Katrina. Plaintiff was the operator of the shuttered
landfill, and Defendants owned and operated competing landfills. Plaintiff alleged that the closure of its
Chef Menteur landfill caused it to lose business that
accrued to the benefit of its competitor, the River
Birch landfill. On summary judgment, the district
court concluded that the Rule 56 evidence presented
no jury question regarding the essential causation element to Plaintiff’s civil action under the Racketeer
Influenced and Corrupt Organizations Act (“RICO”),
18 U.S.C. § 1962(c) and (d). Specifically, the district
court, without considering whether Defendants’
$20,000 campaign contribution was a bribe, held that
the summary judgment evidence failed to create a
genuine issue of material fact to allow a jury to find
that this payment was the but for and proximate
cause of Nagin’s decision to shut down Plaintiff’s
landfill at Chef Menteur Highway.
Upon careful review of the summary judgment record, however, we disagree. We are persuaded that the
evidence, which is primarily circumstantial in nature,
is sufficient for a jury to make positive findings on
both Plaintiff’s claim that the $20,000 payment to
Nagin was a bribe and that the bribe was causally related to Nagin’s action in shuttering the Chef Menteur landfill. We therefore vacate the district court’s
judgment and remand this case for further proceedings.

3a
I. BACKGROUND
In August 2005, after the passage of Hurricane
Katrina, which devastated large portions of New Orleans, there was an urgent need for additional landfill
capacity in which to deposit the extensive waste.
Given the scope of the damage, Mayor Ray Nagin 1 declared a state of emergency on August 31, 2005 and
renewed that emergency declaration fifteen times.
The final renewal was issued on November 3, 2006,
and it expired thirty days later.
In November 2005, Waste Management submitted
a proposal to open a landfill on Chef Menteur Highway in New Orleans East. Although authorization for
such a landfill would ordinarily require a conditional
use permit from the New Orleans City Council, Mayor
Nagin believed that the city had an immediate need
for additional landfill capacity. On February 9, 2006,
Nagin, pursuant to his emergency declaration, issued
Executive Order CRN 06-03 to suspend provisions of
the comprehensive zoning ordinance for six months to
authorize the construction and operation of a landfill
at the Chef Menteur location. The City of New Orleans then entered into a written agreement with
1 Nagin was the Mayor of the City of New Orleans from May
2002 to May 2010. In 2013, a federal grand jury returned a 21count indictment against Nagin, charging him with one count of
conspiracy to commit honest-services wire fraud and bribery; six
counts of bribery; nine counts of honest-services wire fraud; one
count of conspiracy to commit money laundering; and four counts
of filing false tax returns. After trial, the jury returned guilty
verdicts on all counts of the indictment, except for one count of
bribery. The district court sentenced Nagin to ten years in
prison. See United States v. Nagin, 810 F.3d 348 (5th Cir. 2016).

4a
Waste Management to open the landfill; this agreement, however, did not mention an end date. On February 14, 2006, Nagin submitted an emergency disaster cleanup site request for approval to the Louisiana
Department of Environmental Quality (“LDEQ”) to
open the landfill at Chef Menteur for “the duration of
the Hurricane Katrina disaster cleanup efforts, at
this time estimated to be 12 months.” It is uncontested that Nagin had authority to extend the sixmonth suspension of the zoning ordinance at least until his emergency powers expired on December 3,
2006.
Mayor Nagin’s order authorizing the landfill was
not well-received by residents of New Orleans East or
by the City Council. On April 6, 2006, the City Council
passed a resolution condemning Nagin’s February 9
executive order based on community opposition to the
Chef Menteur landfill.
Around this time, Mayor Nagin was engaged in a
hotly contested campaign for re-election. A runoff was
scheduled for May 20, 2006. Two weeks before the
runoff election, Mayor Nagin called Defendant Ward
and asked for a campaign contribution. Ward discussed this request with Heebe, and they decided to
make a $20,000 contribution through four shell corporations established by Defendants—each donating
$5,000. 2 The contribution was made on May 16, 2006.
2 Under Louisiana election law, donating to campaigns
“through or in the name of another, directly or indirectly” is illegal. LA. R.S. § 18:1505.2(a)(1). Moreover, the campaign contribution limit per individual in this election was $5,000. See id.
§ 18:1505.2.

5a
According to Nagin, however, he did not remember
the conversation with Ward and was not aware of the
contribution. Nagin was subsequently re-elected
mayor.
On July 13, 2006, Nagin announced in a court affidavit—in a lawsuit secretly financed by Defendants—that he would not extend his February 9 executive order authorizing the Chef Menteur landfill and
would allow it to expire on August 14, 2006. On August 14, the City sent a cease and desist letter to
Waste Management, ordering the closure of the landfill.
II. PROCEDURAL HISTORY
Waste Management filed the instant RICO action
in September 2011. In its first amended complaint,
Plaintiff alleged that Defendants bribed Henry Mouton, 3 a former commissioner for the Louisiana Department of Wildlife and Fisheries, to influence Nagin to
shut down the Chef Menteur landfill. The district
court dismissed the claims without prejudice because
the amended complaint did not allege how Mouton’s

3 On February 25, 2011, Mouton was charged with one count
of conspiracy to receive illegal payoffs by an agent of a program
receiving federal funds, in violation of 18 U.S.C. § 371; three
counts of receipt of illegal payoffs by an agent of a program receiving federal funds, in violation of 18 U.S.C. § 666(a)(1)(B); and
four counts of making false statements to federal agents, in violation of 18 U.S.C. § 1001(a)(2). On June 1, 2011, Mouton pled
guilty to conspiracy to receive illegal payoffs, pursuant to a plea
agreement with the Government. See United States v. Mouton,
No. 11-CR-48, 2013 WL 2455934, at *1–2 (E.D. La. June 5, 2013).

6a
conduct was the but for and proximate cause of
Nagin’s decision.
Waste Management next filed a second amended
complaint, alleging that (1) Mouton’s lobbying and (2)
Defendants’ campaign contribution to Nagin led to
the landfill’s closure. On March 27, 2015, the district
court dismissed the action insofar as the alleged bribery of Mouton was concerned. But the court did not
dismiss the claims based on allegations concerning
the $20,000 campaign contribution to Nagin.
In its third amended complaint, Waste Management included all of the factual allegations regarding
the Defendants’ conduct with respect to both Mouton
and Nagin. Defendants filed another motion to dismiss and a motion to strike the allegation relating to
Mouton’s role in the scheme to shut down the landfill.
The district court denied their motions. Over a year of
discovery then followed, including depositions of Mouton and Nagin.
After discovery, Defendants moved for partial
summary judgment, arguing that Plaintiff failed to
establish that the campaign contribution to Nagin
constituted bribery. Defendants further argued that,
even if it was bribery, it was not the but for and proximate cause of Nagin’s decision to close down the Chef
Menteur landfill. The district court agreed and dismissed Plaintiff’s RICO claims, stating that “the circumstantial evidence on which Waste Management
relies is far too speculative and conclusory to permit
a reasonable trier of fact to find the requisite causal
connection.” We now consider the issues presented in
this appeal below.

7a
III.

RULE 12(B)(6) DISMISSAL AS RELATED
TO HENRY MOUTON

A. Standard of Review
Before examining the summary judgment evidence, we briefly address Waste Management’s appeal of the district court’s March 27, 2015 order granting Defendants’ Rule 12(b)(6) motion, which dismissed Plaintiff’s suit “insofar as those claims are
predicated on Defendants’ alleged bribery of Mouton.”
We review the district court’s grant of a motion to dismiss de novo. 4 Dismissal is appropriate when the
plaintiff has failed to allege “enough facts to state a
claim to relief that is plausible on its face.” 5
B. Analysis
Here, Plaintiff’s second amended complaint alleges that Mouton—who pled guilty to accepting
bribes from Defendants for attempting to close down
other landfills—was also bribed by Defendants to assist in persuading Nagin to shutter the Chef Menteur
landfill. According to Plaintiff, this scheme was “part
of a well-orchestrated campaign to unlawfully and unfairly influence the approval, permitting, and operations of the River Birch Defendants’ landfill competitors.” Based on the pleadings, we find that the second
amended complaint alleged a plausible claim of Mouton’s involvement in the instant case. The allegations,
Wampler v. Sw. Bell Tel. Co., 597 F.3d 741, 744 (5th Cir.
2010).
4

5 Id. (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)).

8a
if true, warrant relief under RICO. 6 We therefore vacate the district court’s Rule 12(b)(6) ruling insofar as
it precludes consideration of Defendants’ alleged bribery of Mouton and his efforts to further Defendants’
alleged scheme to shutter the Chef Menteur landfill.
IV. SUMMARY JUDGMENT
On appeal, Defendants argue that Plaintiff failed
to put forth competent evidence that their $20,000
campaign contribution to Nagin’s re-election campaign was a bribe under Louisiana law, and even if it
was a bribe, it did not cause Nagin to shutter the Chef
Menteur landfill.
A. Standard of Review
We consider the district court’s grant of Defendants’ motion for summary judgment dismissing Plaintiff’s RICO claims against Defendants. We review this
de novo, 7 and we apply the same criteria employed by
the district court. 8 “Summary judgment is proper only
when it appears that there is no genuine issue of material fact and that the moving party is entitled to

6 Our discussion below fleshes out in more detail how Mouton’s involvement is important to the determination of Defendants’ liability under RICO.

See Whitley v. BP. P.L.C., 838 F.3d 523, 526 (5th Cir. 2016);
Burnett Ranches, Ltd. v. United States, 753 F.3d 143, 146 (5th
Cir. 2014).
7

8 See Turner v. Baylor Richardson Med. Ctr., 476 F.3d 337,
343 (5th Cir. 2007).

9a
judgment as a matter of law.” 9 “On summary judgment the inferences to be drawn from the underlying
facts contained in the affidavits, depositions, and exhibits of record must be viewed in the light most favorable to the party opposing the motion.” 10 “Credibility determinations have no place in summary judgment proceedings” because “non-movants’ summary
judgment evidence must be taken as true.” 11 Moreover, “[w]hen state of mind is an essential element of
the nonmoving party’s claim, it is less fashionable to
grant summary judgment because a party’s state of
mind is inherently a question of fact which turns on
credibility.” 12
B. Analysis
We turn first to Plaintiff’s argument that the
$20,000 contribution by Defendants to Nagin was a
bribe and a “predicate act” under RICO. An act of
“racketeering activity,” commonly referred as a “predicate act,” 13 includes “any act or threat involving . . .
9 Reingold v. Swiftships, Inc., 126 F.3d 645, 646 (5th Cir.
1997) (citing FED. R. CIV. P. 56).
10

Id. (citation omitted).

11 Koerner v. CMR Constr. & Roofing, L.L.C., 910 F.3d 221,
227 (5th Cir. 2018) (quoting Richardson v. Oldham, 12 F.3d
1373, 1379 (5th Cir. 1994)).

Int’l Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257, 1265
(5th Cir. 1991).
12

13 See Dev. Corp. v. Benison, No. 7:15-CV-02160-LSC, 2018
WL 5537766, at *5 (N.D. Ala. Oct. 29, 2018) (citation omitted);
Sebago, Inc. v. Beazer E., Inc., 18 F. Supp. 2d 70, 79 (D. Mass.
1998) (citation omitted).

10a
bribery . . . which is chargeable under State law and
punishable by imprisonment for more than a year.” 14
We look to Louisiana law for the definition of a
bribe. Louisiana’s public bribery statute, Revised
Statute § 14:118, defines public bribery as “the giving
or offering to give, directly or indirectly, anything of
apparent present or prospective value to any [public
official], with the intent to influence his conduct in relation to his position, employment, or duty.” 15 Louisiana courts interpreting this statute have found that
the defendant must have “specific intent” to commit
the crime of bribery. 16 “The inquiry under the Louisiana statute, then, is whether the gift is made . . . with
the intent to influence the conduct of the public servant in relation to his position, employment, or duty.” 17

14

18 U.S.C. § 1961(1).

15

LA. R.S. § 14:118 (A)(1).

See State v. Hingle, 677 So. 2d 603, 607 (La. Ct. App. 2d
Cir. 1996) (“Specific intent is a state of mind and need not be
proved as a fact, but may be inferred from the circumstances of
the transaction and the actions of the defendant. Specific intent
exists when the circumstances indicate that the offender actively
desired the prescribed criminal consequences to follow his act.”)
(citations omitted); State v. Kyzar, 509 So. 2d 147, 151 (La. Ct.
App. 1st Cir. 1987) (“All that the [public bribery] statute requires
is the ‘intent to influence,’” and “[t]he action induced need not be
corrupt or illegal.”) (citing State v. Ponthier, 391 So. 2d 1138,
1139 (La. 1980)).
16

17 United States v. L’Hoste, 609 F.2d 796, 807 (5th Cir. 1980)
(applying Louisiana law); see also State v. Smith, 212 So. 2d 410,
412 (La. 1968).

11a
Specific intent to bribe may be determined from all
the facts and circumstances surrounding the case. 18
RICO creates a private civil action to be brought
by “[a]ny person injured in his business or property by
reason of a violation of section 1962 of this chapter . .
. .” 19 Section 1962, which contains RICO’s criminal
provision, makes it “unlawful for any person employed by or associated with any enterprise engaged
in, or the activities of which affect, interstate . . . commerce, to conduct or participate, directly or indirectly,
in the conduct of such enterprise’s affairs through a
pattern of racketeering activity.” 20 Conspiracy to violate section 1962 is also unlawful. 21 And relevant
here, bribery is a predicate offense and enumerated
as a “racketeering activity” under 18 U.S.C. § 1961(1).
“The Supreme Court requires plaintiffs to establish both but for cause and proximate cause in order
to show injury ‘by reason of’ a RICO violation.” 22
“Proximate cause should be evaluated in light of its
common-law foundations [and] . . . requires ‘some direct relation between the injury asserted and theinjurious conduct alleged.’” 23 “When a court evaluates a
18

See L’Hoste, 609 F.2d at 808.

19

18 U.S.C. § 1964(c).

20

Id. § 1962(c).

21

Id. § 1962(d).

Torres v. S.G.E. Mgmt., L.L.C., 838 F.3d 629, 636 (5th Cir.
2016) (en banc) (citing Bridge v. Phoenix Bond & Indem. Co., 553
U.S. 639, 654 (2008)).
22

23 Id. (citing Hemi Grp., LLC v. City of New York, 559 U.S. 1,
9 (2010)).

12a
RICO claim for proximate cause, the central question
it must ask is whether the alleged violation led directly to the plaintiff's injuries.” 24 Therefore, to satisfy the causation element of RICO in this case, Plaintiff has the burden of establishing that the payment
to Nagin was the but for cause and proximate cause
of his decision to shutter the landfill. 25 This burden
requires Plaintiff to establish that its damages
“w[ere] a foreseeable and natural consequence” of Defendants’ action. 26
Under this causation standard, the resolution of
this appeal requires us to examine, in detail, the summary judgment evidence to determine whether that
evidence, along with the inferences that a jury could
draw from that evidence, would create a fact question
on these issues. A plaintiff need not rely on direct evidence; causation can be proven with circumstantial
evidence. 27

Id. (citing Anza v. Ideal Steel Supply Corp., 547 U.S. 451,
461 (2006)).
24

25 See Holmes v. Sec. Inv’r Prot. Corp., 503 U.S. 258, 268
(1992).
26

Bridge, 553 U.S. at 657.

27 See United States v. Jones, 873 F.3d 482, 490 (5th Cir.
2017) (permitting jury to find RICO enterprise by circumstantial
evidence); United States v. Griffin, 324 F.3d 330, 357–58 (5th
Cir. 2003).

13a
1. The Evidence Relied Upon by Defendants in
Support of Summary Judgment.
River Birch argues first that no evidence supports
Waste Management’s theory that the $20,000 campaign contribution it made through related shell corporations was intended as a bribe—that is, to intentionally influence Mayor Nagin to shut down the Chef
Menteur landfill. River Birch points to the lack of evidence of a quid pro quo agreement between Defendants and Mayor Nagin or indeed that Defendants
asked Nagin to do anything for them.
Moreover, Defendants emphasize that it is neither
illegal nor unusual for them to make a campaign contribution because they rely on the goodwill of political
entities in large part for their business. They also assert that they must make campaign contributions to
level the playing field and to give them access to political decision-makers. Defendants also point out
that no evidence was produced of any conversation or
other communication between them and Nagin
around the time of the alleged bribe.
2. The Evidence Relied Upon by Plaintiff in Opposition to Summary Judgment.
Waste Management argues that a jury could reasonably conclude from circumstantial evidence that
the $20,000 contribution by River Birch’s shell corporations to Nagin was a bribe. Plaintiff bases its argument on the circumstances surrounding Defendants’
alleged bribery of Mouton and other circumstances
around the payment to Nagin. Moreover, Plaintiff
points out that the district court failed to address evidence on Mouton in its summary judgment opinion.

14a
a. Henry Mouton
Mouton was a former commissioner for the Louisiana Department of Wildlife and Fisheries. Waste
Management argues that Mouton played a large role
in Defendants’ underlying scheme to shutter the Chef
Menteur landfill. In 2011, Mouton pled guilty to violating 18 U.S.C. § 371, admitting that he received
bribes for using his official position to assist Defendants by influencing public officials to help Defendants
shutter landfill competitors. Relevant here, Mouton’s
factual basis supporting his guilty plea provides:
Shortly after Hurricane Katrina made landfall in August of 2005, Co-conspirator “A”
and other Co-conspirators recognized the
potential to obtain millions of dollars in revenue for the collection and disposal of storm
debris from storm ravaged areas. . . . Co-conspirator “A” conspired with Mouton to shutter the competition. The plan was to eliminate the competition and increase the revenue of Co-conspirator “A” by increasing the
amount of storm debris deposited in the
landfills owned by Co-conspirator “A.”
Mouton confirmed at his deposition in this case
that Co-conspirator “A” was Defendant Heebe and
that the Chef Menteur landfill was one of the landfills
that was targeted as part of the scheme he had with
Heebe. Moreover, as part of the campaign of Defendants to shutter the Chef Menteur landfill, Mouton testified that Heebe and Ward, or their attorneys, wrote
or assisted in drafting a letter for Mouton to send to
the Louisiana Department of Environmental Quality,

15a
as well as federal agencies, urging the closure of the
Chef Menteur landfill for alleged environmental reasons. 28 Mouton, presumably for the benefit of Defendants, also sent copies of the letter to the City of New
Orleans.
Under Rule 56, we construe Waste Management’s
summary judgment evidence as true; 29 this includes
statements made in Mouton’s factual basis and deposition. Defendants and Mouton knew that Nagin was
the critical decision-maker who had authority to either extend or decline to extend the temporary order
allowing the Chef Menteur landfill to continue operations. A jury could therefore conclude that Mouton’s
communication of allegedly false environmental concerns about the landfill to state and federal agencies
was designed to have these government agencies influence Nagin to shut down the landfill. Because Mouton’s action in this respect could be seen as part of the
overall plan to shutter the Chef Menteur landfill, evidence of Defendants’ conduct in bribing Mouton to
participate is intrinsic to this case.

On April 6, 2006, Mouton sent this letter and notice of intention to file a citizen’s suit regarding the Chef Menteur landfill, alleging violations of the Clean Water Act, 33 U.S.C. § 1251
et seq. This letter was addressed to the Administrator of the Environmental Protection Agency and forwarded to, among others,
the Regional Administrator of the EPA, the U.S. Attorney General, the Louisiana Attorney General, Secretary of LDEQ, U.S.
Attorney for the Eastern District of Louisiana, and Criminal Division of the Internal Revenue Service.
28

29

Koerner, 910 F.3d at 227.

16a
In United States v. Rice, we explained that evidence that is intrinsic to the case is not limited by
Federal Rule of Evidence 404(b), 30 such that “other
act” evidence may be used to show that the actor acted
similarly in the case before the court. 31 We stated that
“‘other act’ evidence is ‘intrinsic’ when the evidence of
the other act and the evidence of the crime charged
are ‘inextricably intertwined’ or both acts are part of
a ‘single criminal episode’ or the other acts were ‘necessary preliminaries’ to the crime charged.” 32 Moreover, “[i]ntrinsic evidence is admissible to ‘complete the
story of the crime by proving the immediate context
of events in time and place,’ and to ‘evaluate all of the
circumstances under which the defendant acted.’” 33
We explained that “[i]ntrinsic evidence does not implicate [R]ule 404(b), and ‘consideration of its admissibility pursuant to [that rule] is unnecessary.’” 34

30 Federal Rule of Evidence 404(b)(1) provides: “Evidence of
a crime, wrong, or other act is not admissible to prove a person’s
character in order to show that on a particular occasion the person acted in accordance with the character.”
31

607 F.3d 133, 141 (5th Cir. 2010).

32 Id. (quoting United States v. Williams, 900 F.2d 823, 825
(5th Cir. 1990)).
33

Id. (citations omitted).

34 Id. (quoting United States v. Garcia, 27 F.3d 1009, 1014
(5th Cir. 1994)) (bracket original); see also United States v. Freeman, 434 F.3d 369, 374 (5th Cir. 2005) (holding “[i]ntrinsic evidence is generally admissible” and its “admission is not subject
to [R]ule 404(b).”).

17a
Although Rice is a criminal case, the same rationale applies in the civil context. 35 This is particularly true here, where the elements in the criminalRICO context overlap with the elements of a civilRICO case. 36 So, in this case, based on Mouton’s testimony that there was a scheme to shutter the Chef
Menteur landfill, the evidence suggesting Defendants’ intent to bribe Mouton can be considered by the
jury in determining Defendants’ motive and intent in
connection with their contribution to Nagin’s campaign. 37
Waste Management also points to the additional
fact that these contributions in the amount of $5,000
each were made not in Defendants’ names, but rather
by four shell corporations owned by Defendants. The
parties do not dispute that River Birch, Heebe and
Ward funded these contributions. And these contributions, in fact, violated Louisiana law, which prohibits
a party from making political contributions in the
35 See, e.g., Elliot v. Turner Const. Co., 381 F.3d 995, 1004
(10th Cir. 2004) (holding evidence intrinsic to plaintiff’s negligence claim admissible because it was “part of the same tortious
event” and essential to illustrate events leading up to plaintiff’s
injuries).

See St. Paul Mercury Ins. Co. v. Williamson, 224 F.3d 425,
446 n.15 (5th Cir. 2000). Civil-RICO liability arises under RICO.
18 U.S.C. § 1964(c); see also Anza, 547 U.S. at 453 (“One of
RICO’s enforcement mechanisms is a private right of action. . .
.”).
36

37 To be clear, we do not intend to preempt the district court’s
right to rule on any evidentiary objection that this evidence is
not intrinsic. The district court must rule on the objection, if
raised, based on the evidence at trial.

18a
names of others. 38 Plaintiff argues that Defendants’
attempt to conceal the true source of the contributions
raises an inference that their contributions were intended to cover up evidence of wrongdoing. Moreover,
one of the shell corporations that made a $5,000 campaign donation to Nagin—Westside Construction Services—was the same entity Heebe used to pay Mouton.
Mouton also assisted Defendants in other ways to
achieve the scheme’s objective. On April 6, 2006, at
Defendants’ request, Mouton threatened the City
with a lawsuit seeking an injunction to close the Chef
Menteur landfill for environmental reasons. Mouton
did not follow through with this threat, but Defendants recruited certain plaintiffs who resided in the
area of the landfill and, again using the shell corporation Westside Construction Services, financed a lawsuit against the City seeking closure of the landfill.
All along, Defendants remained in the background
and concealed their role in the litigation.
Moreover, Waste Management points out that
Mayor Nagin was convicted of public bribery in a totally different scheme in 2013, 39 which would serve as
strong impeachment material to undermine all of
Nagin’s testimony, including his denial that he was
paid by Defendants to close the landfill.

38

See LA. R.S. § 18:1505.2(a)(1).

39

See supra note 1 for description of Nagin’s criminal convic-

tion.

19a
Plaintiff also points to the timing of Defendants’
$20,000 payment to Nagin, on the eve of the expiration of the emergency order, as support for Plaintiff’s
position that the payment was to influence Nagin to
close the landfill. Plaintiff considers it relevant that
when Heebe and Ward became concerned that Nagin
may not have been fully aware of their $20,000 contribution, Ward sent a letter, delivered to Nagin’s
campaign by Ward’s chauffeur, just three days before
the expiration of the emergency order reminding
Nagin of the campaign payment and Defendants’ earlier support of him.
It is rare in public bribery cases that there is definitive “smoking gun” evidence to show a payment
was made to an official to influence the official to perform some act—and there is no such evidence here. 40
It is critical in cases such as this that inferences from
circumstantial evidence about intent and motives
about which reasonable minds could differ be sorted
out by the jury. 41

See United States v. Elliot, 571 F.2d 880, 898 (5th Cir.
1978) (“Like a criminal conspiracy, a RICO enterprise cannot be
expected to maintain a high profile in the community. Its affairs
are likely to be conducted in secrecy and to involve a minimal
amount of necessary contact between participants.”).
40

41 See United States v. Garza, 574 F.2d 298, 304-05 (5th Cir.
1978) ([I]t is the jury’s duty to draw whatever permissible inferences it may from circumstantial evidence that usually forms the
basis for finding criminal intent, and to find a verdict founded on
whatever permissible inferences the jury chooses to draw.”) (citation omitted); Crowe v. Henry, 115 F.3d 294, 298 (5th Cir.
1997).

20a
b. Causation
Defendants argue next that even if the question of
whether their $20,000 payment was a bribe must go
to the jury, they are still entitled to summary judgment because there is no evidence that the payment
proximately caused Mayor Nagin to close the landfill.
Defendants’ principal argument—that the evidence
does not support any causal connection between Defendants’ $20,000 payment and Nagin’s ultimate decision to shut down the Chef Menteur landfill—rests
on the executive order itself and Nagin’s deposition
testimony. The executive order authorized the Chef
Menteur landfill to operate for six months from the
date it was signed on February 9, 2006. Nagin testified that when he signed the executive order, he never
intended to extend it or to allow the landfill to remain
open after that date.
But a jury could reasonably find otherwise. As indicated above, Mayor Nagin’s felony conviction for
public bribery in a different scheme provides abundant fodder for impeaching his testimony. It is also
obvious that Nagin had an interest in avoiding further criminal or civil jeopardy for participating in another bribery scheme. Moreover, a jury could infer
that Nagin’s acceptance of bribes, while holding public office, was a part of his “pattern of conduct” or “modus operandi.”
There was also other evidence tending to undermine Mayor Nagin’s testimony that he never intended
to authorize the landfill to operate past August 2006,
when the emergency order was set to expire. This is
reflected by the request signed by Nagin, which was

21a
submitted to LDEQ (five days after Nagin signed the
emergency order) seeking approval of the City’s plan
to open the Chef Menteur landfill “for the duration of
the Katrina cleanup.”
Also, Mayor Nagin, in an apparent effort to quash
environmental concerns of his constituents who lived
in the area of the landfill, announced on June 30,
2006, the favorable results of environmental testing.
Nagin then announced two weeks later, on July 13,
2006, his decision to shutter the landfill. This tends to
support Waste Management’s argument that Nagin
suddenly reversed his position about extending authorization to leave the landfill open. In other words,
a jury could question why Nagin made the positive
announcement on June 30, 2006, unless he planned
to allow the landfill to remain open.
In addition to Waste Management’s surprise about
the closing of the landfill in August, federal and state
officials also testified that they were taken aback at
the abrupt closure of the landfill. In particular, Dr.
Chuck Carr Brown, who oversaw the Katrina debris
cleanup at LDEQ, testified by deposition that he understood the City had planned to keep the Chef Menteur landfill open as long as LDEQ needed it for the
disaster cleanup. Dr. Brown was surprised and confused when he learned of the Mayor’s decision not to
extend the authorization of the Chef Menteur landfill,
particularly given the Mayor’s recent announcement
of the environmental testing of the landfill. Dr. Brown
immediately sought a clarification from the City as to
why it had changed its position, and he sought to explain the dire need for the landfill and the adverse
consequences from its closing. The apparent sudden

22a
reversal of Nagin’s position on whether to close the
landfill, which was contrary to the understanding
held by the environmental agencies, supports the inference that Mayor Nagin’s original intention was for
the Chef Menteur landfill to operate for the duration
of the Katrina cleanup.
Even though Defendants argue that the City
Council had exclusive regulatory authority over zoning, Nagin could have renewed his executive order
while his general emergency declaration was in effect, 42 which would have allowed the Chef Menteur
landfill to continue operations without a conditional
use permit.
In summary, Mayor Nagin in February 2006
signed the executive order, the agreement with Waste
Management, and the LDEQ form seeking approval
to open and maintain the Chef Menteur landfill until
the Katrina cleanup was complete. Nagin was reelected on May 20, 2006, with the Chef Menteur landfill operating and no indication that he would no
longer support it. After extensive environmental testing with LDEQ confirmed that there were no environmental hazards at the Chef Menteur landfill, on June
30, 2006, Nagin publicly announced those results,
stating the test results “should ease the concerns of
the citizens.” Then, on July 10, 2006, Ward wrote to
remind Nagin’s associates of Defendants’ large financial contributions ($20,000 in 2006 and $40,000 in
2005) that Defendants had made “on a direct basis
with Mayor Nagin.” Only three days later, by affidavit
42

See LA. R.S. § 29:721 et seq.

23a
filed in a litigation secretly financed by Defendant
River Birch, Nagin announced that he would not renew the executive order. This chain of events, if accepted by the jury, supports the inference that Defendants’ bribery of Mayor Nagin influenced his actions in refusing to extend the executive order. A reasonable jury could also infer causation from Mayor
Nagin’s disregard of the evidence that the Chef Menteur landfill was safe and badly needed in the City’s
disaster cleanup. Accordingly, we hold that Plaintiff
has provided sufficient evidence to survive a summary judgment challenge in this case.
*

*

*

The dissent is correct that this case is a close call.
Evidence here—along with the reasonable inferences
drawn from this evidence—could reasonably show either political pressure or pay-to-play bribes that motivated Nagin to shutter the Chef Menteur landfill.
But the dissent is wrong to suggest that Matsushita
Elec. Indus. Co. v. Zenith Radio Corp. 43 alters the
summary judgment standard in this RICO case to
preclude the jury from evaluating this evidence and
deciding what inferences to draw from the evidence it
accepts.
We begin with a recap. Matsushita was an antitrust case that challenged Japanese television manufacturers’ lowering of prices as anti-competitive. 44
The Supreme Court held that “a plaintiff seeking
damages for a violation of § 1 [of the Sherman Act]
43

475 U.S. 574 (1986).

44

Id. at 577-78.

24a
must present evidence ‘that tends to exclude the possibility’ that the alleged conspirators acted independently.” 45 The Court found that the plaintiffs’ substantive claim of conspiracy to engage in predatory
pricing made no economic sense because such a
scheme was risky and self-deterring as it was too
costly to the conspirators. 46 The Court held that the
general summary judgment rule applied: “[I]nferences to be drawn from the underlying facts . . . must
be viewed in the light most favorable to the party opposing the [summary judgment] motion.” 47 And the
Court recognized that “antitrust law limits the range
of permissible inferences from ambiguous evidence in
a § 1 case.” 48 So considered altogether, in this antitrust context, the Court concluded that if a plaintiff
relies on circumstantial evidence of an agreement rather than express acts, and if the claim against a defendant appears implausible, a plaintiff has an additional evidentiary burden to survive a summary judgment attack:
[T]he absence of any plausible motive to engage in the conduct charged is highly relevant to whether a ‘genuine issue for trial’ exists within the meaning of Rule 56(e). Lack
of motive bears on the range of permissible
conclusions that might be drawn from am-

45

Id. at 588.

46

Id. at 594-95.

47

Id. at 587-88 (citation omitted).

48

Id. at 588.

25a
biguous evidence: if petitioners had no rational economic motive to conspire, and if
their conduct is consistent with other,
equally plausible explanations, the conduct
does not give rise to an inference of conspiracy. 49
Put differently, if it appears that a defendant lacks
a plausible motive for engaging in anticompetitive
conduct, in order to survive summary judgment, an
antitrust plaintiff must present evidence that
“show[s] that the inference of conspiracy is reasonable
in light of the competing inferences of independent action or collusive action that could not have harmed
[plaintiffs].” 50 Matsushita confines courts from drawing inferences in antitrust cases that are at odds with
economic theory (specifically, predatory pricing). 51

49

Id. at 596-97.

50

Id. at 588.

51 Matsushita built upon Monsanto Co. v. Spray-Rite Service
Corp., 465 U.S. 752 (1984) by holding that “antitrust law limits
the range of permissible inferences from ambiguous evidence.”
Matsushita, 475 U.S. at 588. “The Court’s rationale for awarding
summary judgment to the defendants in Matsushita, then,
turned to a large extent on its rejection of a substantive theory
of antitrust law–implausible theories of predatory pricing were
now disfavored as a matter of substantive law.” EDWARD J.
BRUNET ET AL., SUMMARY JUDGMENT: FEDERAL LAW AND PRACTICE § 9.5, at p. 423 (2019).

26a
The Matsushita Court’s antitrust lesson on summary judgment is not applicable here. 52 The dissent
52 The summary judgment standard, as applied in Matsushita, was predicated on substantive antitrust law. As Professor
Brunet states:

Standing on its own, however, apart from the
[1986 summary-judgment] trilogy, Matsushita
functions best as a model for antitrust summary
judgment. The Court’s discussion on the summary
judgment process repeatedly refers to substantive
antitrust doctrine. For example, the Court’s statement that “antitrust law limits the range of permissible inferences from ambiguous evidence in a § 1
[Sherman Act] case” was a response to the plaintiffs’ contention that all inferences “must be viewed
in the light most favorable to the party opposing
the [summary judgment] motion.” Moreover, the
Supreme Court framed the burden placed on the
nonmovant in a specific antitrust factual context.
Id. at 425 (citations omitted).
Other scholars share a similar characterization of the
Matsushita opinion. See, e.g., JAMES WM. MOORE ET AL., 11
MOORE’S FEDERAL PRACTICE § 56.22[2][c] (3d ed. 2018). Specifically, they recognize:
The [Supreme] Court found the plaintiff’s theory of a long-running predatory pricing scheme implausible because it would require defendants to
incur substantial losses jointly for years without an
intervening opportunity to recoup monopoly profits.
The Supreme Court then incorporated the substantive evidentiary standard applicable in antitrust cases into its analysis, noting that “antitrust
law limits the range of permissible inferences from
ambiguous evidence in a § 1 [of the Sherman Act]
case.” Under substantive antitrust law, conduct

27a
falls into error by extending it to our civil-RICO case.
Using circumstantial evidence to conclude that a
bribe occurred is not at odds with economic theory.
Both Nagin and River Birch allegedly sought monetary gains; Waste Management’s argument does not
defy settled economic principles. 53
The dissent, without citation, insists that “[i]n
RICO conspiracies, like antitrust ones, the plaintiff
has an affirmative obligation to negate other innocent
explanations for the defendants’ conduct.” The dissent goes further: “To carry [plaintiff’s] burden, Waste
Management must produce evidence that ‘tends to exclude the possibility’ Mayor Nagin was motivated by
politics rather than bribes.” We have not imposed

that is as consistent with permissible competition
as with illegal conspiracy does not, standing alone,
support an inference of antitrust conspiracy.
Therefore, to survive a motion for summary judgment, the plaintiffs had to present evidence that
tended to exclude the possibility that the alleged
conspirators acted independently.
Id. (citations omitted); see Arthur R. Miller, The Pretrial Rush to
Judgment: Are the “Litigation Explosion,” “Liability Crisis,” and
Efficiency Clichés Eroding Our Day in Court and Jury Trial
Commitments?, 78 N.Y.U. L. REV. 982, 1044–68 (2003) (concluding that Matsushita “seems specific to the antitrust context”).
53 It is telling that River Birch has never thought the instant
case has anything to do with Matsushita and that case’s point
about economic rationality. Defendants never raised it. Nagin’s
and Mouton’s history of receiving bribes shows there is nothing
economically irrational about that conduct.

28a
such a heightened burden on a RICO plaintiff. 54 Rather, we have maintained, and our precedent holds,
that a RICO plaintiff:
does not need to disprove [a defendant’s]
explanation of the situation in order to
survive summary judgment. [A RICO
plaintiff] need only present evidence that
would permit a reasonable finder of fact to
accept his interpretation of the facts. . . .
The decision as to whether to believe
[plaintiff’s or defendant’s] explanation of
the facts requires the type of credibility determination by the court that is plainly inappropriate on motion for summary judgment. 55
We have been reminded by the Supreme Court
since Matsushita that, on summary judgment, “[t]he
The dissent cites a number of cases, see post, at 31 (opinion
of OLDHAM, J.), that “apply Matsushita in non-antitrust cases.”
That’s not surprising, considering that Matsushita is one of the
most-cited Supreme Court cases. But in non-antitrust context,
courts apply Matsushita for its statement of the general Rule 56
standard: “When the moving party has carried its burden under
Rule 56(c), its opponent must do more than simply show that
there is some metaphysical doubt as to the material facts. . . .
Where the record taken as a whole could not lead a rational trier
of fact to find for the nonmoving party, there is no ‘genuine issue
for trial.’” Matsushita, 475 U.S. at 586–87 (citations omitted).
The cases cited by the dissent show precisely that.
54

55 See Crowe v. Henry, 115 F.3d 294, 298 (5th Cir. 1997); see
also, e.g., Whelan v. Winchester Prod. Co., 319 F.3d 225, 228 (5th
Cir. 2003) (applying general Rule 56 summary judgment standard in RICO case).

29a
evidence of the nonmovant is to be believed, and all
justifiable inferences are to be drawn in his [or her]
favor.” 56 In Tolan v. Cotton, though recognizing that
it “is not equipped to correct every perceived error
coming from the lower federal courts,” the Supreme
Court “intervene[d]” to summarily reverse our Rule
56 dismissal, calling it “a clear misapprehension of
summary judgment standards. . . .” 57 We need not repeat this rebuke.
This close case—where the evidence could support
a verdict for either side, depending upon the evidence
the jury credits and the reasonable inferences drawn
from that evidence—is tailor-made for a trial, not
summary judgment. A question that “turns on state
of mind,” that is, Nagin’s reasoning for shuttering the
Chef Menteur landfill and River Birch’s decision to
discreetly transfer and donate funds to Nagin through
shell corporations, is “often inappropriate for resolution at the summary judgment stage.” 58 We hold that
the correct disposition of this civil-RICO appeal is to
remand it for trial so that a jury can sort out the facts
56 Tolan v. Cotton, 572 U.S. 650, 656 (2014) (per curiam)
(summarily reversing our entry of summary judgment emphasizing “a ‘judge’s function’ at summary judgment is not ‘to weigh
the evidence and determine the truth of the matter but to determine whether there is a genuine issue for trial.’”) (citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249 (1986)); see also, e.g.,
Thomas v. Nugent, 572 U.S. 1111 (2014) (remanding case in light
of Tolan).
57

Tolan, 572 U.S. at 659.

58 See Krim v. BancTexas Group, Inc., 989 F.2d 1435, 1449
(5th Cir. 1993); Int’l Shortstop, 939 F.2d at 1265.

30a
and decide what appropriate inferences should be
drawn from those facts. 59
V. CONCLUSION
For the above reasons, we are satisfied that the
record reflects genuine issues of material fact as to
both whether the Defendants’ campaign contribution
to Nagin was a bribe and whether the payment was
the but for and proximate cause of Nagin’s decision to
close the Chef Menteur landfill. We therefore VACATE the district court’s judgment and REMAND for
further proceedings consistent with this opinion. We
also VACATE the district court’s March 27, 2015 order of dismissal insofar as that order bars consideration of evidence related to Mouton.
VACATED AND REMANDED.
ANDREW S. OLDHAM, Circuit Judge, dissenting:
“[Bad] facts make bad law.” Wyeth v. Levine, 555
U.S. 555, 604 (2009) (Alito, J., dissenting). Ray Nagin
59 To the extent the dissent is concerned about chilling First
Amendment rights, our decision today does no such thing. We
recognize that Supreme Court precedent safeguards political
speech. See Citizens United v. FEC, 558 U.S. 310, 339–40 (2010).
But such protection, afforded by the First Amendment, does not
extend to certain illegal activities. See, e.g., McCutcheon v. FEC,
572 U.S. 185, 192 (2014) (noting First Amendment does not protect quid pro quo corruption). Under Louisiana law, political donations, like the ones by Defendants, cannot be made in disguise
and veiled by shell corporations to bypass campaign-contribution
limits. The First Amendment is therefore not implicated here.
Indeed, the dissent’s point about the First Amendment is again
one River Birch did not think worth making. And rightly so.

31a
accepted bribes. So did Henry Mouton. But the question is not whether Nagin and Mouton are crooks. The
question is whether Waste Management can use civil
RICO against a competitor with zero evidence of causation. With greatest respect for my colleagues and
their views on this difficult case, I’d say no.
I.
Long ago, we worried that summary judgment
could be a “catch penny contrivance to take unwary
litigants into its toils and deprive them of a trial.”
Whitaker v. Coleman, 115 F.2d 305, 307 (5th Cir.
1940). That view was common at the time. In the
years following the adoption of Rule 56 in 1938, “the
courts [were], if anything, overhesitant in granting
the relief.” Charles E. Clark, Summary Judgments—
a Proposed Rule of Court, 2 F.R.D. 364, 366 (1943); see
also Charles E. Clark & Charles U. Samenow, The
Summary Judgment, 38 YALE L.J. 423 (1929) (explaining the need for a summary judgment rule). The
hesitancy was rooted in an institutional concern that
summary judgment would transgress the sanctity of
the jury room. See, e.g., Avrick v. Rockmont Envelope
Co., 155 F.2d 568, 571 (10th Cir. 1946) (“The power to
pierce the flimsy and transparent factual veil should
be temperately and cautiously used lest abuse reap
nullification.”).
Then came 1986. In a trilogy of summary-judgment opinions, the Supreme Court told us we had it
all wrong. See Celotex Corp. v. Catrett, 477 U.S. 317
(1986); Anderson v. Liberty Lobby, Inc., 477 U.S. 242
(1986); Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574 (1986). Each was a landmark in

32a
its own right. And each held the lower federal courts
were unduly penurious in meting out summary judgment.
Take Matsushita, for example. American television manufacturers sued Japanese competitors for
predatory pricing. The plaintiffs alleged their Japanese competitors had conspired to drive down prices
and put the Americans out of business. The Third Circuit found myriad material factual disputes that precluded summary judgment for the defendants. For example, it highlighted evidence the Japanese companies entered “formal agreements” to fix minimum
prices, undercut those agreements through “a variety
of rebate schemes,” and concealed the rebates from
both the American and Japanese governments.
Matsushita, 475 U.S. at 581. And it was undisputed
the Japanese companies entered other price-fixing
conspiracies. See id. at 595–96 (conceding “direct evidence” of such). Obviously, in the abstract, one could
believe the Japanese conspirators had conspired once
again.
Still, the Supreme Court reversed the denial of
summary judgment. Two of its reasons apply directly
here. First, the Court held the American plaintiffs
“must show that the inference of conspiracy is reasonable in light of the competing inferences of independent action.” Id. at 588. Put differently, the plaintiffs
must present evidence that “tends to exclude the possibility” their competitors acted innocently. Ibid.
(quotation omitted). Second, and crucially, the Court
held evidence of other conspiracies is insufficient to
bridge that gap. Sure, the Court conceded, it’s possi-

33a
ble the Japanese companies were up to their old conspiratorial tricks. But “their conduct [was also] consistent with other, equally plausible explanations”—
including a non-conspiratorial desire to gain market
share by driving down prices. Id. at 596–97. That the
Japanese companies conspired in the past would not
allow a jury to reasonably infer they conspired again.
We’ve generally heeded the Supreme Court’s admonishment. We’ve recognized that the Celotex-Anderson-Matsushita “trilogy . . . made it clear that our
earlier approach to Rule 56 was wrong-headed because it was simply inconsistent with the plain language of the rule.” Little v. Liquid Air Corp., 37 F.3d
1069, 1075 (5th Cir. 1994) (en banc) (per curiam) (citations omitted); see also Douglass v. United Servs.
Auto. Ass’n, 79 F.3d 1415, 1423 (5th Cir. 1996) (en
banc) (noting “the growing judicial recognition of the
many benefits of summary judgment”), superseded by
statute on other grounds, 28 U.S.C. § 636(b)(1); Calpetco 1981 v. Marshall Expl., Inc., 989 F.2d 1408,
1415 (5th Cir. 1993) (similar). And we’ve held “[t]estimony based on conjecture or speculation is insufficient to raise an issue of fact to defeat a summary
judgment motion.” Ruiz v. Whirlpool, Inc., 12 F.3d
510, 513 (5th Cir. 1994) (following Anderson). Put differently, “summary judgment is appropriate in any
case where critical evidence is so weak or tenuous on
an essential fact that it could not support a judgment
in favor of the nonmovant.” Little, 37 F.3d at 1075
(quotation omitted); accord Anderson News, L.L.C. v.
Am. Media, Inc., 899 F.3d 87, 98 (2d Cir. 2018) (“The
question is not whether the plaintiff’s inferences are
so far-fetched that a trier of fact should not be allowed

34a
to consider them, but whether the evidence, though
not far-fetched, sufficed to meet the plaintiff’s burden
of proof.” (alterations and citation omitted)).
II.
This case certainly smells fishy. River Birch made
campaign donations to Mayor Nagin, who refused to
reauthorize the landfill of River Birch’s competitor,
Waste Management. But if Matsushita teaches us anything, it’s that foul-smelling facts don’t preclude
summary judgment. We should be especially careful
to heed that lesson in civil RICO cases like this one.
Before asking a jury to separate official acts motivated by bribery from those motivated by the public
interest, we should be quite sure there is some evidence that could satisfy the plaintiff’s burden of proof.
A.
The dispute at the heart of this case is why Mayor
Nagin refused to reauthorize a landfill. There’s an innocent explanation: The landfill was politically unpopular, and Nagin did not want to continue taking
political heat for authorizing it. Then there’s a sinister explanation: River Birch bribed him.
A straightforward application of Matsushita precludes asking a jury to choose between them. As in
Matsushita, it’s the plaintiff’s burden to connect its
injuries to its competitors’ alleged conspiracy. To
carry that burden, Waste Management must produce
evidence that “tends to exclude the possibility” Mayor
Nagin was motivated by politics rather than bribes.
475 U.S. at 588 (quotation omitted). Evidence that is
“as consistent with” politics as it is with bribes does

35a
not suffice because it does nothing to help the jury
choose between “competing inferences.” Ibid.
The evidence of Nagin’s political motivations is undisputed and overwhelming. Waste Management attempts to overcome that evidence in various ways.
They make all involved look, well, trashy. But they
fail to create a jury question.
1.
Let’s start with the undisputed evidence of Nagin’s
independent motivation to close the landfill. This
landfill was wildly unpopular. Everyone hated it.
Waste Management’s predecessor in interest attempted to open it in the mid-1990s. The New Orleans
City Council rejected the effort. Waste Management
purchased an option to try again in 2001 and 2002. It
too failed.
Then came Hurricane Katrina. That catastrophe
made the politically impossible possible—at least
temporarily. On February 9, 2006, Mayor Nagin issued an emergency executive order. It allowed Waste
Management to open the landfill immediately and secure Council approval for it later. Even in the immediate aftermath of Katrina—when the need for new
landfills was patent—the political backlash was swift
and vicious.
Before the landfill could open on an emergency basis, the City Council issued a scathing rebuke of the
project. In a unanimous resolution, the Council noted
“a great majority” of the affected residents voiced “vehement opposition” to the landfill. New Orleans City
Council Resolution R-06-156, at 1 (Apr. 6, 2006). It

36a
noted the Mayor had bypassed all “public input” in
unilaterally issuing the emergency order. Ibid. It
noted the federal government had not determined the
levee system surrounding the landfill was “safe.” Id.
at 1. Moreover, the Mayor had not determined his chosen landfill was the best of the “environmentally
sound alternatives.” Id. at 2. The Council therefore
unanimously and “strongly urge[d]” the Mayor to revoke his order “immediately.” Id. at 2. And it again
emphasized its resolution was “based upon overwhelming community opposition” to the landfill. Id.
at 1.
The political opposition was so strong it was literally national news. See, e.g., Leslie Eaton, A New
Landfill in New Orleans Sets Off a Battle, N.Y. TIMES
(May 8, 2006). There’s not a scintilla of evidence this
political fury was fake. This was not some “AstroTurf”
campaign financed by the defendants. For example,
Councilwoman Cynthia Hedge-Morrell opposed the
landfill because it “would harm the environment and
lessen the possibility that people would return to New
Orleans East.” By all accounts, this was genuine
grassroots outrage about the prospect of an eightyfoot trash tower in a poor neighborhood populated
predominantly by people of color. There is no dispute
this outrage gave Nagin ample political motivation
not to renew the landfill’s emergency authorization.
Nor is there a scintilla of evidence that anyone
thought the Mayor’s emergency order was anything
other than temporary. The order suspended the zoning laws “for a period of six months unless earlier rescinded by [the Mayor] or other operation of law.” As
an expressly bargained-for condition of the order,

37a
Waste Management “stated its plan to file” the same
zoning application required of every other landfill operator in New Orleans. The Mayor also expressly bargained for Waste Management’s help in creating political support for the landfill through “the appropriate neighborhood meetings.” So as things stood on
February 9, 2006, Waste Management had up to six
months to get its ducks in a row—to open the landfill,
sell the plan to affected citizens, win support for it on
the City Council, and finish its paperwork. And Waste
Management had a maximum of six months to do all
that. By its terms, after all, the order could be rescinded at any time.
So how could Waste Management think—but for
any intervening bribery—it was in the clear? Well, it
didn’t. According to its emails, Waste Management
knew it had a maximum of six months to complete a
task list that had proved impossible for a decade. And
it also knew the effort would require heavy political
lifting. That’s why Waste Management had a “Gov Affairs Strategy Meeting” to discuss both “How do we
keep [the landfill] open beyond [the] 6 month order?”
and “How do we manage [the situation] politically?”
Waste Management apparently wanted to manage
this politically by convincing Mayor Nagin to extend
his emergency order—and continue shouldering political blame for the landfill. But there is no evidence
Mayor Nagin wanted to continue facing criticism for
unilaterally authorizing the landfill. When pressed at
its Rule 30(b)(6) deposition to identify anything to
suggest it ever convinced the Mayor to be the political
fall-guy (again), Waste Management could say only
that some unidentified person who may or may not

38a
work for some government entity may or may not
have “implied” it at some unspecified time in some unspecified way.
Of course, it’s possible that—but for the defendants’ campaign contributions—Nagin wanted to continue shouldering the political blame for an eightstory garbage pile in voters’ backyards. It’s possible
Nagin wanted to repeat the decision that earned him
a unanimous rebuke from the City Council, scathing
coverage in the New York Times, and vehement opposition back home. Anything is possible. But there’s no
evidence of it. Much less is there evidence the Mayor
changed his mind and opposed a politically unpopular
landfill because of River Birch’s four campaign contributions. 1

1 The entirety of defendants’ alleged bribes are four publicly
reported campaign contributions of $5,000, all made on May 16,
2006. To put these numbers in perspective, Nagin reported
$590,747.00 in contributions for the seven-week period between
May 1 and June 19, 2006. See Candidate’s Report, Report Number 10056, LA. ETHICS ADMIN. PROGRAM, 1–2 (filed June 27,
2006), http://ethics.la.gov/CampaignFinanceSearch/ShowEForm
.aspx?ReportID=10056. The defendants’ $20,000 constitutes a
mere 3% of that seven-week total. And across the 2006 primary
and general election, Nagin spent $2,491,147.95. See Brian Brox,
Elections and Voting in Post-Katrina New Orleans, SOUTHERN
STUDIES: AN INTERDISCIPLINARY JOURNAL OF THE SOUTH,
Fall/Winter 2009, at 8, 15. The defendants’ $20,000 is 0.8% of
that total. The record does not reveal a reason to think these relatively small sums of money loomed larger in Mayor Nagin’s calculus than the obvious political implications of reauthorizing the
landfill.

39a
2.
But wait, says Waste Management: These are not
ordinary campaign contributions because Nagin took
bribes in other instances. Therefore, they say, the jury
could find he did so here.
It’s true Nagin is in prison for accepting unrelated
bribes. It’s also legally irrelevant.
In Matsushita, the Third Circuit relied on “direct
evidence” the Japanese television makers had engaged in price-fixing conspiracies in Japan. In re Japanese Elec. Prods. Antitrust Litig., 723 F.2d 238, 305
(3d Cir. 1983), rev’d sub nom. Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574 (1986). It held
evidence of these other conspiracies “may be circumstantial evidence of a broader conspiracy.” Ibid. And
it further held such circumstantial evidence precluded summary judgment because, after all, a reasonable jury could infer once a conspirator, always a
conspirator. It’s also easy to see how documented, direct proof of conspiracies back in Japan would powerfully impeach any denial of conspiracies in the United
States.
I likewise agree with my esteemed colleagues “a
jury could infer that Nagin’s acceptance of bribes,
while holding public office, was a part of his ‘pattern
of conduct’ or ‘modus operandi.’” Ante, slip op. at 15.
And I agree Nagin’s bribery conviction would serve as
powerful impeachment of his testimony. Ibid. But
that sort of evidence did not change the propriety of
summary judgment in Matsushita. Nor should it here.

40a
That’s because surviving summary judgment requires more than character evidence and impeachment material. In RICO conspiracies, like antitrust
ones, the plaintiff has an affirmative obligation to negate other innocent explanations for the defendants’
conduct. And the Supreme Court could not have been
clearer in holding other bad acts won’t do the trick:
The “direct evidence” on which the court
[of appeals] relied was evidence of other
combinations, not of a predatory pricing
conspiracy. . . . Evidence that tends to support any of these collateral conspiracies
thus says little, if anything, about the existence of a conspiracy to charge belowmarket prices in the American market
over a period of two decades.
Matsushita, 475 U.S. at 595–96.
This was no fleeting thought. It was a thoroughly
reasoned response to the principal basis for the dissent, which criticized the majority for “mak[ing] assumptions that invade the factfinder’s province.” Id.
at 601 (White, J., dissenting). Justice White explained:
[A]fter reviewing evidence of cartel activity in Japan, collusive establishment of
dumping prices in this country, and longterm, below-cost sales, the Third Circuit
held that a factfinder could reasonably
conclude that the [illegal horizontal agreement] was not a simple price-raising device. . . . I see nothing erroneous in this
reasoning.

41a
Id. at 605. Justice White’s understanding of the summary judgment standard would obviously necessitate
reversal here. But “[t]his is one of those instances in
which the dissent clearly tells us what the law is not.
It is not as if the proposition had not occurred to the
majority of the Court.” Kobach v. U.S. Election Assistance Comm’n, 772 F.3d 1183, 1188 (10th Cir. 2014). 2
The majority responds that Matsushita is irrelevant because this is not an antitrust case. See ante,
slip op. at 19–20. But Matsushita “did not introduce a
special burden . . . in antitrust cases”; it “merely articulated” a requirement applicable to all cases under
Rule 56. Eastman Kodak Co. v. Image Tech. Servs.,
Inc., 504 U.S. 451, 468 (1992). That’s why courts routinely apply Matsushita in non-antitrust cases. See
Ricci v. DeStefano, 557 U.S. 557, 586 (2009); Scott v.
Harris, 550 U.S. 372, 380 (2007); NLFC, Inc. v.
Devcom Mid-Am., Inc., 45 F.3d 231, 235 (7th Cir.
1995); Sylvia Dev. Corp. v. Calvert Cty., 48 F.3d 810,
818 (4th Cir. 1995); Leonard v. Dixie Well Serv. &
Supply, Inc., 828 F.2d 291, 294 (5th Cir. 1987). “[T]he
2 Given that prior-crimes evidence doesn’t help with Nagin,
it definitely doesn’t help with Mouton. Mouton regulated
shrimping. The only evidence tying him to the landfill is a letter
he sent to the EPA regarding a citizen suit. He never met Nagin,
never worked for him, never talked to him (about the landfill or
anything else), and never had any influence over him. Accordingly, Waste Management cannot show Mouton was connected
in any way to Nagin, much less that he caused Nagin to refuse
to reauthorize the landfill. Cf. Boyle v. United States, 556 U.S.
938, 947 n.4 (2009) (individuals who act “independently and
without coordination” are not part of RICO association). Mouton
is irrelevant.

42a
universal applicability of the Supreme Court’s analysis in Matsushita” is well established. In re Managed
Care Litig., 430 F. Supp. 2d 1336, 1345 (S.D. Fla.
2006). That’s because Matsushita requires summary
judgment anytime the evidence is “as consistent with”
lawful conduct as with unlawful conduct.
True, other parts of Matsushita’s reasoning are
not relevant here. For example, no one argues that
Nagin “lack[ed] a plausible motive for” accepting a
bribe or that the alleged bribery scheme “ma[kes] no
economic sense.” Ante, slip op. at 18–19 (characterizing Matsushita). But the “economic rationality” of the
alleged conduct, ante, slip op. at 20 n.53, does not justify a trial in this case, just as it wouldn’t have in
Matsushita. The Matsushita Court expressly denied
that “a plausible reason to conspire” combined with
“ambiguous conduct could suffice to create a triable
issue of conspiracy.” 475 U.S. at 597 n.21. Regardless
of economics, “conduct that is as consistent with permissible competition as with illegal conspiracy does
not, without more, support even an inference of conspiracy.” Ibid.
Other lower courts have attempted the majority’s
move, and it did not end well. In Bell Atlantic Corp. v.
Twombly, 550 U.S. 544 (2007), the Supreme Court issued another landmark procedural ruling in an antitrust case. Some argued Twombly’s reading of Federal
Rule of Civil Procedure 8 should be limited to “the
context of an antitrust dispute.” Ashcroft v. Iqbal, 556
U.S. 662, 684 (2009). But the Court emphatically rejected that argument. Twombly—like Matsushita—
“interpret[ed] and appli[ed]” the Federal Rules of
Civil Procedure, which govern “all civil actions and

43a
proceedings in the United States district courts.” Ibid.
(quotation omitted). So Matsushita—like Twombly—
applies to all cases, not just antitrust ones.
But even if that weren’t true, Matsushita would
remain applicable to civil RICO cases like this one.
“Antitrust cases are particularly instructive in the
civil RICO context because, as the Supreme Court has
observed, ‘the civil action provision of RICO was patterned after the Clayton Act.’” In re Managed Care
Litig., 430 F. Supp. 2d at 1345 (quoting Agency Holding Corp. v. Malley-Duff & Assocs., Inc., 483 U.S. 143,
150 (1987)). The majority simply cannot ignore
Matsushita as just “an antitrust case.”
3.
Waste Management also claims to have three
pieces of evidence tending to show the defendants’
campaign contributions caused the Mayor to change
his mind. They tend to show no such thing.
The first is an “Emergency Disaster Cleanup Site
Request” filed by the Mayor’s office on February 14,
2006. The Mayor’s office filed it five days after Nagin
signed his emergency order. Through it, Nagin asked
the Louisiana Department of Environmental Quality
(“LDEQ”) to provide emergency state approval for the
landfill. And in it, Nagin requested state approval for
“the duration of the Hurricane Katrina disaster
cleanup efforts, at this time estimated to be 12
months.” But that says nothing about whether Nagin
was willing to wage political war against his City
Council for 12 months. There’s nothing illegal about
wanting the State to approve a landfill for 12 months
and demanding political buy-in from the City Council

44a
in half that time. Moreover, the LDEQ request was
filed almost two months before the Council formally
excoriated Nagin for authorizing the landfill. To the
extent the LDEQ request shows Nagin changed his
mind, it is perfectly consistent with his doing so in response to a bruising political fight. As we know from
Matsushita, that consistency precludes this case from
reaching a jury.
The second piece of evidence is a city press release
from June 30, 2006. That release was headlined “Lab
Results Show No Air or Water Contaminations at
Chef Hwy Landfill.” And it attributes a quote to
Nagin, who hoped the sampling results would “ease
the concerns of the citizens.” But environmental concerns were only one of the reasons the landfill was a
political mess. The city’s leaders also worried the
landfill would displace a community of color. See, e.g.,
Affidavit of Councilwoman Cynthia Hedge-Morrell.
No amount of lab sampling would change that. And in
all events, the landfill was a political albatross around
the Mayor’s neck. There is nothing illegal about an
elected official using favorable test results to defend
against a political liability. Nor is there anything irrational about making the best of a bad political situation in June before cutting bait in August.
The third piece of evidence is a letter from the
LDEQ dated July 14, 2006. In it, LDEQ officials said
they “were surprised” to learn of Nagin’s decision not
to renew his emergency authorization for the landfill.
“It has been our understanding and impression,” they
wrote, “that you supported the use of the Chef Menteur site to dispose of” hurricane debris. The city attorney responded that the city is not “oppos[ed]” to the

45a
landfill. To the contrary, the city attorney expressly
stated the LDEQ would be “justified” in authorizing
the landfill at the state level. Nagin simply refused to
continue waging a lone-ranger political war against
his City Council at the local level. In short, if the State
was willing to take the blame, all the better—but
Nagin was not going to take it himself. Far from supporting an inference Nagin was motivated by bribes
from River Birch, this last piece of evidence suggests
he was motivated by politics.
B.
Make no mistake. Like my colleagues, I am convinced post-Katrina local politics were odiferous. And
sometimes criminal. Still, that does not mean Waste
Management’s civil RICO claim against River Birch
is the proper remedy.
“Civil RICO is an unusually potent weapon—the
litigation equivalent of a thermonuclear device.” Miranda v. Ponce Fed. Bank, 948 F.2d 41, 44 (1st Cir.
1991). The statute punishes defendants with treble
damages, attorney’s fees, and the “stigmatizing” label
“racketeer.” Ibid. That alone gives even “spurious
claims” tantalizing “in terrorem settlement value.”
Haroco, Inc. v. Am. Nat’l Bank & Tr. Co. of Chi., 747
F.2d 384, 399 n.16 (7th Cir. 1984), aff’d, 473 U.S. 606
(1985).
But that’s not the worst of it. “RICO has been interpreted so broadly that it has been used more often
against respected businesses with no ties to organized
crime, than against the mobsters who were the clearly
intended target of the statute.” Sedima, S.P.R.L. v.

46a
Imrex Co., 473 U.S. 479, 526 (1985) (Powell, J., dissenting); see also id. at 499 (majority op.) (“It is true
that private civil actions under the statute are being
brought almost solely against [respected businesses],
rather than against the archetypal, intimidating mobster.”). The predicate acts for civil RICO are so broad
that racketeering claims are de riguer in commercial
litigation. In the words of Abner Mikva—who voted
against RICO as a member of Congress before applying it as a judge on the D.C. Circuit—civil RICO is “a
weapon against legitimate businessmen in ordinary
commercial disputes. The civil RICO count today has
become boilerplate in commercial lawsuits.” Abner
Mikva & G. Robert Blakey, RICO and its Progeny:
Good or Bad Law?, 2 NOTRE DAME J.L. ETHICS & PUB.
POL’Y 369, 372 (1986). 3

3

At a debate hosted by Notre Dame, Mikva explained:

In preparing for my appearance here today, I went through
some of the cases in which a civil RICO claim has been filed. And
the range of cases boggle[s] the mind. These are not cases
against Mafia figures. These have nothing to do with some poor
merchant who has been squeezed by the mafiosi in a loan transaction. RICO makes its appearance in everything from divorce
suits to religious disputes, to suits against one of the national
candidates for President, to a major political party, and to just
about every kind of garden variety of contractual and securities
dispute that you could imagine between businessmen, to corporate raids, to defenses against corporate raids, to state efforts to
collect state sales taxes from local businessmen.
If you find it hard to relate that potpourri to organized crime
or racketeering, you are not alone.
Id. at 371.

47a
To be clear, I am not saying any particular person
involved in this commercial dispute is or is not a legitimate businessman. What I am saying is equal justice under the law applies equally to crook and
cherub. Cf. Kimmelman v. Morrison, 477 U.S. 365,
380 (1986) (“The constitutional rights of criminal defendants are granted to the innocent and the guilty
alike.”); Tenn. Valley Auth. v. Hill, 437 U.S. 153, 195
(1978) (“Yes, I’d give the Devil benefit of law, for my
own safety’s sake.” (quoting ROBERT BOLT, A MAN FOR
ALL SEASONS, Act I, p. 147 (Three Plays, Heinemann
ed. 1967)). And regardless of the merits in this case,
we must worry the rules we devise today will ensnare
innocent civil RICO defendants tomorrow. Cf. Haroco,
747 F.2d at 399 n.16 (“After all, the line between
fraud and mistake or misunderstanding can be a very
fine one. It is, therefore, important that, in the further
development of civil RICO, criminal fraud be clearly
distinguished from less egregious conduct.”).
The error costs are particularly high here because
this case combines civil RICO with the First Amendment. The First Amendment protects political speech.
See Citizens United v. FEC, 558 U.S. 310, 339–40
(2010). That includes large donations to candidates
and committees. See McCutcheon v. FEC, 572 U.S.
185, 203–04 (2014) (plurality); id. at 230–31 (Thomas,
J., concurring in the judgment). Of course, the First
Amendment does not protect “‘quid pro quo’ corruption.” Id. at 192. But if we’re not careful, our efforts to
carve out unprotected speech can run headlong into
the core of the First Amendment. See, e.g., United
States v. Alvarez, 567 U.S. 709, 723 (2012) (noting
Congress can criminalize some kinds of lying, but it

48a
must be careful not to “chill” protected speech). If we
are unwilling to rigorously apply Rule 56, future
would-be speakers may remain silent rather than risk
a civil RICO trial.
Again, 1986’s summary-judgment trilogy provides
a way out of this box. The Supreme Court directs us
to consider “the actual quantum and quality of proof
necessary to support liability.” Anderson, 477 U.S. at
254. That means a summary-judgment court must
consult the underlying substantive law. See ibid.;
Matsushita, 475 U.S. at 597–98. Here, the underlying
law includes both the First Amendment (as in Anderson) and conspiracy (as in Matsushita). It also includes the line between political speech and corruption (as in McCutcheon). Putting all of that together,
Waste Management can survive summary judgment
only by pointing to some evidence of “‘quid pro quo’
corruption.” McCutcheon, 572 U.S. at 207. This, the
majority concedes, Waste Management cannot do. See
ante, slip op. at 14.
*

*

*

This is a tough case. We have not one but two individuals who were convicted of taking bribes. We
have the rough-and-tumble local politics of postKatrina New Orleans. And we have fierce competitors
in the landfill industry. The majority and I disagree
about whether all of this belongs in front of a civil
RICO jury. But I think our disagreement is driven
more by this case’s facts than by a fundamental disagreement about the post-1986 summary judgment
standard. And I don’t read the majority to allow any

49a
of these issues to reach the jury—including, for example, whether the Mayor “disregard[ed]” his policy advisors, ante, slip op. at 17—without the totality of the
facts presented in this highly unusual case.
No one finds these facts more troubling than I do.
But as Justice Scalia once said, “[t]he judge who always likes the results he reaches is a bad judge.”
Clare Kim, Justice Scalia: Constitution Is “Dead,”
MSNBC
(Oct.
2,
2013,
10:03
PM),
http://www.msnbc.com/the-last-word/justice-scaliaconstitution-dead. I don’t like granting summary
judgment to campaign-finance violators. Nor do I like
giving the benefit of the doubt to disgraced ex-government officials. But, in the absence of evidence, it’s
what the law commands. I respectfully dissent.

50a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WASTE MANAGEMENT OF
LOUISIANA, LLC

CIVIL ACTION

VERSUS

NO. 11-2405

RIVER BIRCH, INC.,
HIGHWAY 90, LLC,
FREDERICK R. HEEBE and
ALBERT WARD, JR.

SECTION “N” (4)

ORDER AND REASONS
Presently before the Court is Defendants’ “Motion for Partial Summary Judgment on Alleged
Bribery and Causation With Respect to Chef Menteur Claims” (Rec. Doc. 319). For the reasons stated
herein, IT IS ORDERED that the motion is
GRANTED.
I. Summary Judgment Standard
Pursuant to Rule 56(a) of the Federal Rules of
Civil Procedure, summary judgment shall be
granted “if the movant shows that there is no genuine dispute as to any material fact and the movant
is entitled to a judgment as a matter of law.” Fed.
R. Civ. P. 56(a). The materiality of facts is determined by the substantive law’s identification of
which facts are critical and which facts are irrelevant. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A fact is material if it “might affect the
outcome of the suit under the governing law.” Id.

51a
If the dispositive issue is one on which the nonmoving party will bear the burden of proof at trial,
the moving party may satisfy its summary judgment burden by merely pointing out that the evidence in the record contains insufficient proof concerning an essential element of the nonmoving
party’s claim. See Fed. R. Civ. P. 56(c); Celotex Corp.
v. Catrett, 477 U.S. 317, 325 (1986); see also Lavespere v. Liberty Mut. Ins. Co., 910 F.2d 167, 178 (5th
Cir. 1990). Once the moving party carries its burden
pursuant to Rule 56(a), the nonmoving party must
“go beyond the pleadings and by [his] own affidavits,
or by the ‘depositions, answers to interrogatories,
and admissions on file,’ designate ‘specific facts
showing that there is a genuine issue for trial.’” Celotex, 477 U.S. at 324; see also Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574,
587 (1986); Auguster v. Vermillion Parish School
Bd., 249 F.3d 400, 402 (5th Cir. 2001).
When considering a motion for summary judgment, the Court views the evidence in the light most
favorable to the nonmoving party, Gillis v. Louisiana, 294 F.3d 755, 758 (5th Cir. 2002), and draws
all reasonable inferences in favor of that party.
Hunt v. Rapides Healthcare System, L.L.C., 277
F.3d 757, 764 (2001). Factual controversies are to be
resolved in favor of the nonmoving party, “but only
when there is an actual controversy, that is, when
both parties have submitted evidence of contradictory facts.” Little v. Liquid Air Corp., 37 F.3d 1069,
1075 (5th Cir.1994) (citations omitted). The Court
will not, “in the absence of any proof, assume that

52a
the nonmoving party could or would prove the necessary facts.” See id. (emphasis in original) (citing
Lujan v. Nat'l Wildlife Fed’n, 497 U.S. 871, 888
(1990)).
Although the Court is to consider the full record
in ruling on a motion for summary judgment, Rule
56 does not obligate it to search for evidence to support a party’s opposition to summary judgment. See
Fed. R. Civ. P. 56(c)(3) (“court need consider only
the cited materials”); Malacara v. Garber, 353 F.3d
393, 405 (5th Cir. 2003) (“When evidence exists in
the summary judgment record but the nonmovant
fails even to refer to it in the response to the motion
for summary judgment, that evidence is not
properly before the district court.”). Thus, the nonmoving party should “identify specific evidence in
the record, and articulate” precisely how that evidence supports his claims. Forsyth v. Barr, 19 F.3d
1527, 1537 (5th Cir.), cert. denied, 513 U.S. 871
(1994).
The nonmovant’s burden is not satisfied merely
by creating “some metaphysical doubt as to the material facts,” “by conclusory allegations,” by “unsubstantiated assertions,” or “by only a scintilla of evidence.” Little, 37 F.3d at 1075. Rather, a factual dispute precludes a grant of summary judgment only if
the evidence is sufficient to permit a reasonable
trier of fact to find for the nonmoving party. Smith
v. Amedisys, 298 F.3d 434, 440 (5th Cir. 2002).
II. RICO
The Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C. §§1962(c) and (d),

53a
provides a private cause of action to “[a]ny person
injured in his business or property by reason of a
violation of section 1962 of this chapter.” 18 U.S.C.
§1964(c). Section 1962, which contains RICO’s criminal provisions, makes it “unlawful for any person
employed by or associated with any enterprise engaged in, or the activities of which affect, interstate
. . . commerce, to conduct or participate, directly or
indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity.” See 18
U.S.C. §1962(c). Conspiring to violate §1962(c) also
is unlawful. Id. at §1962(d).
An “enterprise” includes any individual, partnership, corporation, association, or other legal entity,
and any union or group of individuals associated in
fact although not a legal entity. 18 U.S.C. §1961(5).
“‘[R]acketeering activity’ means (A) any act or
threat involving murder, kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene
matter, or dealing in a controlled substance or listed
chemical . . . which is chargeable under State law
and punishable by imprisonment for more than one
year. . . .” 18 U.S.C. §1961(1). “A ‘pattern of racketeering activity’ requires at least two acts of racketeering activity . . . .” 18 U.S.C. §1961(5).
In Holmes v. Securities Investor Protection Corporation, 503 U.S. 258 (1992), the Supreme Court
set forth the standard of causation applicable to
civil RICO claims. See Hemi Group, LLC v. City of
New York, N.Y., 559 U.S. 1 (2010) (citing Holmes,
503 U.S. at 268-74). Specifically, to state a civil
claim under RICO, the plaintiff is required to show
that a RICO predicate offense “not only was a ‘but

54a
for’ cause of his injury, but was the proximate cause
as well.” Hemi Group, 559 U.S. at 8-9 (citing
Holmes, 503 U.S. at 268). Proximate cause, which is
evaluated in light of its common-law foundations,
requires “some direct relation between the injury
asserted and the injurious conduct alleged.” Id. at 9
(internal citations omitted). “A link that is ‘too remote,’ ‘purely contingent,’ or ‘indirect’ is insufficient. Id. (citing Holmes, 503 U.S. at 271, 274).
III. Analysis
Addressing Plaintiff’s RICO claims concerning
the Chef Menteur landfill, the Court previously determined that the allegations of Plaintiff’s Second
Amended Complaint regarding Defendants’ alleged
bribery of former New Orleans Mayor C. Ray Nagin
were sufficiently pled for purposes of Rules 8 and
12(b)(6) of the Federal Rules of Civil Procedure. See
Rec. Doc. 131 at 3-4. Because Plaintiff did not include Nagin’s alleged 2006 bribery in its original or
amended complaints until 2014, however, the Court
directed Plaintiff to amend its complaint to include
the factual bases for its assertion that equitable
principles rendered those claims timely despite the
application of a four-year statute of limitations. Id.
at 6. Thereafter, addressing Plaintiff's Third
Amended Complaint (Rec. Doc. 140), the Court concluded: “Although Defendants ultimately may be
able to make the evidentiary showing necessary to
prevail by summary judgment, the Court is unable
to conclude at this juncture of the proceedings,
based solely on the pleadings and without the benefit of discovery, that dismissal of the entirety of
Plaintiff's RICO claims is warranted.” See Rec. Doc.

55a
156 at 2.
Following the parties’ completion of discovery,
including the May 11, 2017 deposition of former
New Orleans mayor, C. Ray Nagin, Defendants filed
the motion for partial summary judgment now before the Court. In support of their motion, Defendants contend that Plaintiffs have failed to put forth
competent evidence that Defendants’ May 2006 contributions to Nagin’s re-election campaign constituted bribery, under Louisiana law, or that “any
such alleged bribery caused an injury” to Plaintiff.
See Rec. Doc. 319-1 at 1.
Having carefully considered the parties’ voluminous evidentiary submissions (Rec. Docs. 319, 3191, 335, and 362), the remainder of the record in this
matter, and applicable law, IT IS ORDERED that
Defendants’ instant motion for partial summary
judgment is GRANTED relative to the “causation”
element of Plaintiff’s Chef Menteur RICO claim. In
short, the Court finds that Plaintiff has failed to put
forth sufficient Rule 56 evidence to support a reasonable inference that Defendants’ May 2006 campaign contributions were the “but for” and “proximate” cause for former Mayor Nagin’s decision to allow the six-month effective period of Executive Order CRN 06-03 to expire, in accordance with the express terms of the order, in August 2006. 1 Rather,
the circumstantial evidence on which Plaintiff relies
1 See Executive Order CRN 06-03 (Rec. Doc. 335-15): “Section
4: The provision of this Executive Order shall be effective for a
period of six months unless earlier rescinded by [former Mayor
Nagin] or by other operation of law.”

56a
in opposing Defendants’ motion is far too speculative and conclusory to permit a reasonable trier of
fact to find the requisite causal connection. Accordingly, because Plaintiff has not satisfied its burden,
under Rule 56(c) and (e), of citing to particular record documents demonstrating the existence of a
genuine dispute as to material fact(s), Defendants
are entitled to dismissal with prejudice of Plaintiff’s
RICO claim premised upon the August 2006 closure
of the Chef Menteur landfill.
New Orleans, Louisiana, this 3rd day of November, 2017.
/s/Kurt D. Engelhardt
KURT D. ENGELHARDT
United States District Judge
Clerk to Copy:
Chief Magistrate Judge Karen Wells Roby

57a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WASTE MANAGEMENT OF
LOUISIANA, LLC

CIVIL ACTION

VERSUS

NO. 11-2405

RIVER BIRCH, INC.,
HIGHWAY 90, LLC,
FREDERICK R. HEEBE and
ALBERT WARD, JR.

SECTION “N” (4)

JUDGMENT
As reflected in Chief Magistrate Judge Roby’s
November 30, 2017 Minute Entry (Rec. Doc. 443)
and the Sealed Transcript of the November 30, 2017
Settlement Conference (Sealed Rec. Doc. 444), the
parties have reached a settlement of certain claims
asserted in this matter. Plaintiff Waste Management of Louisiana, LLC’s claim for relief asserted
under the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18 U.S.C. §1964(c), concerning the Chef Menteur landfill, remains unsettled
and subject to appeal.
Accordingly, for the reasons set forth in the
Court’s Orders and Reasons dated March 31, 2014,
March 27, 2015, and November 3, 2017 (Rec. Docs.
98, 131, and 372), IT IS ORDERED, ADJUDGED,
AND DECREED that there be judgment in favor of
Defendants River Birch, Inc., Highway 90, LLC,
Frederick R. Heebe, and Albert J. Ward, Jr., and
against Plaintiff Waste Management of Louisiana,

58a
LLC, dismissing with prejudice Plaintiff Waste
Management of Louisiana, LLC’s RICO claim for relief regarding the Chef Menteur landfill.
New Orleans, Louisiana, this 4th day of January
2018.
/s/Kurt D. Engelhardt
KURT D. ENGELHARDT
United States District Judge

59a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30139
WASTE MANAGEMENT OF LOUISIANA, L.L.C.,
Plaintiff-Appellant
v.
RIVER BIRCH, INCORPORATED; ALBERT J.
WARD, JR.; FREDERICK R. HEEBE; HIGHWAY
90, L.L.C.,
Defendants-Appellees
Appeal from the United States District Court
for the Eastern District of Louisiana
Before DAVIS, COSTA, and OLDHAM, Circuit
Judges.
PER CURIAM:
ON PETITION FOR PANEL AND
EN BANC REHEARING
Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, we note that Defendants did not cite or rely on Matsushita Electric Industrial Co. v. Zenith Radio Corp., 475 U.S. 574 (1986),

60a
in the district court or to the panel. We therefore decline to consider that case now. Both the majority and
the dissent agree that the issue in this case is factual,
more particularly, what inferences can or will be
drawn by the jury from the evidence.
The majority continues to adhere to its view that
fact issues are presented that preclude summary
judgment. The dissent disagrees and would affirm the
district court. The petition for panel rehearing is
therefore DENIED. Accordingly, the judgment of the
district court is reversed, and the case is remanded for
further proceedings.
No member of the panel nor judge in regular active
service of the court 1 having requested that the court
be polled on Rehearing En Banc (FED. R. APP. P. AND
5TH CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.
ENTERED FOR THE COURT:
/s/ W. Eugene Davis
UNITED STATES CIRCUIT JUDGE

1 Judges Stephen A. Higginson and Kurt D. Engelhardt did
not participate in the consideration of the rehearing en banc.

61a
APPENDIX E
RULE INVOLVED
Federal Rule of Civil Procedure 56
Rule 56. Summary Judgment
(a) MOTION FOR SUMMARY JUDGMENT OR PARTIAL SUMJUDGMENT. A party may move for summary
judgment, identifying each claim or defense—or the
part of each claim or defense—on which summary
judgment is sought. The court shall grant summary
judgment if the movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law. The court
should state on the record the reasons for granting or
denying the motion.

MARY

(b) TIME TO FILE A MOTION. Unless a different time is
set by local rule or the court orders otherwise, a party
may file a motion for summary judgment at any time
until 30 days after the close of all discovery.
(c) PROCEDURES.
(1) Supporting Factual Positions. A party asserting that a fact cannot be or is genuinely disputed must support the assertion by:
(A) citing to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those
made for purposes of the motion only), admissions, interrogatory answers, or other materials; or

62a
(B) showing that the materials cited do not
establish the absence or presence of a genuine
dispute, or that an adverse party cannot produce admissible evidence to support the fact.
(2) Objection That a Fact Is Not Supported by
Admissible Evidence. A party may object that the
material cited to support or dispute a fact cannot
be presented in a form that would be admissible in
evidence.
(3) Materials Not Cited. The court need consider only the cited materials, but it may consider
other materials in the record.
(4) Affidavits or Declarations. An affidavit or
declaration used to support or oppose a motion
must be made on personal knowledge, set out facts
that would be admissible in evidence, and show
that the affiant or declarant is competent to testify
on the matters stated.
(d) WHEN FACTS ARE UNAVAILABLE TO THE NONMOVANT. If a nonmovant shows by affidavit or declaration that, for specified reasons, it cannot present
facts essential to justify its opposition, the court may:
(1) defer considering the motion or deny it;
(2) allow time to obtain affidavits or declarations or to take discovery; or
(3) issue any other appropriate order.
(e) FAILING TO PROPERLY SUPPORT OR ADDRESS A FACT.
If a party fails to properly support an assertion of fact
or fails to properly address another party’s assertion
of fact as required by Rule 56(c), the court may:

63a
(1) give an opportunity to properly support or
address the fact;
(2) consider the fact undisputed for purposes of
the motion;
(3) grant summary judgment if the motion and
supporting materials—including the facts considered undisputed—show that the movant is entitled to it; or
(4) issue any other appropriate order.
(f) JUDGMENT INDEPENDENT OF THE MOTION. After giving notice and a reasonable time to respond, the court
may:
(1) grant summary judgment for a nonmovant;
(2) grant the motion on grounds not raised by a
party; or
(3) consider summary judgment on its own after identifying for the parties material facts that
may not be genuinely in dispute.
(g) FAILING TO GRANT ALL THE REQUESTED RELIEF. If
the court does not grant all the relief requested by the
motion, it may enter an order stating any material
fact—including an item of damages or other relief—
that is not genuinely in dispute and treating the fact
as established in the case.
(h) AFFIDAVIT OR DECLARATION SUBMITTED IN BAD
FAITH. If satisfied that an affidavit or declaration under this rule is submitted in bad faith or solely for delay, the court—after notice and a reasonable time to
respond—ricmay order the submitting party to pay

64a
the other party the reasonable expenses, including attorney’s fees, it incurred as a result. An offending
party or attorney may also be held in contempt or subjected to other appropriate sanctions.

